<html>
<title> - TRAFFICKING PREVENTION IN FOREIGN AFFAIRS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






         TRAFFICKING PREVENTION IN FOREIGN AFFAIRS CONTRACTING
            ACT; CONDEMNING THE COWARDLY ATTACK ON INNOCENT
              MEN, WOMEN AND CHILDREN IN THE NORTHEASTERN
            NIGERIAN TOWN OF BAGA; AND NORTH KOREA SANCTIONS
                        ENFORCEMENT ACT OF 2015

=======================================================================


                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                   H.R. 400, H. Res. 53 and H.R. 757

                               __________

                           FEBRUARY 27, 2015

                               __________

                           Serial No. 114-20

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                              
                               _______  
   
                    U.S. GOVERNMENT PUBLISHING OFFICE 

93-536 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
                          
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 400, To require the Secretary of State and the Administrator 
  of the United States Agency for International Development to 
  submit reports on definitions of placement and recruitment fees 
  for purposes of enabling compliance with the Trafficking 
  Victims Protection Act of 2000, and for other purposes.........     2
H. Res. 53, Condemning the cowardly attack on innocent men, 
  women, and children in the northeastern Nigerian town of Baga..     9
  Amendment in the nature of a substitute to H. Res. 53 offered 
    by the Honorable Robin L. Kelly, a Representative in Congress 
    from the State of Illinois...................................    12
H.R. 757, To improve the enforcement of sanctions against the 
  Government of North Korea, and for other purposes..............    23
  Amendments to H.R. 757 offered by:
      The Honorable Joaquin Castro, a Representative in Congress 
        from the State of Texas..................................    84
      The Honorable Gerald E. Connolly, a Representative in 
        Congress from the Commonwealth of Virginia...............    86
      The Honorable Ted Poe, a Representative in Congress from 
        the State of Texas.......................................    87

                                APPENDIX

Markup notice....................................................    90
Markup minutes...................................................    91
Markup summary...................................................    93

 
               TRAFFICKING PREVENTION IN FOREIGN AFFAIRS

            CONTRACTING ACT; CONDEMNING THE COWARDLY ATTACK

               ON INNOCENT MEN, WOMEN AND CHILDREN IN THE

             NORTHEASTERN NIGERIAN TOWN OF BAGA; AND NORTH

                KOREA SANCTIONS ENFORCEMENT ACT OF 2015

                              ----------                              


                       FRIDAY, FEBRUARY 27, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:38 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order. Pursuant 
to notice, we meet today to mark up three bipartisan measures 
and, without objection, all members may have 5 days to submit 
any statements for the record or extraneous materials on any of 
today's business. As all members were notified yesterday, we 
intend to consider our first two measures en bloc.
    And so, without objection, the following items will be 
considered en bloc and are considered as read: H.R. 400, the 
Trafficking Prevention in Foreign Affairs Contracting Act; 
House Resolution 53, a resolution condemning the cowardly 
attacks on innocent men, women, and children in Northeast 
Nigeria; and Kelly amendment No. 14, in the nature of a 
substitute to House Resolution 53. And after recognizing myself 
and Mr. Engel, I will be pleased to recognize any Member 
seeking recognition to speak on these two measures.
    [The information referred to follows:]H.R. 
400 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Royce. So we begin with H.R. 400, Trafficking 
Prevention in Foreign Affairs Contracting Act. And this has to 
do with a problem that we have at some of our posts overseas. 
The State Department, as you know, and the USAID rely on 
contractors to provide services like construction, security and 
maintenance. And those contractors employ foreign workers and 
often they are recruited from faraway developing countries, 
where they are vulnerable to abuse. And, in particular, labor 
recruiters may charge prospective employees recruitment fees or 
payments, basically, for the right to work. So current law 
prohibits U.S. contractors from, in theory, charging foreign 
workers unreasonable recruitment fees and the State Department 
claims to prohibit any recruitment fees at all.
    However, neither State nor USAID have defined what 
constitutes a recruitment fee. And this ambiguity, 
unfortunately, has allowed some recruiters to simply rename 
these fees and continue charging them. And this is a serious 
problem.
    We have a 2011 report by the State Department Inspector 
General, and in that report they found that a majority of 
State's foreign contract workers in certain Middle Eastern 
countries were paying substantial fees to recruiters, sometimes 
more than a year's salary, resulting in--and this is in the 
words of the Inspector General--``effective debt bondage.'' To 
ensure that our overseas contracting does not feed the problem, 
this bill requires State and USAID to define what prohibited 
recruitment fees are and to report to Congress on their plans 
to improve contract monitoring to protect against human 
trafficking.
    Then, the other bill I will mention is amendment to House 
Resolution 53, a resolution condemning Boko Haram and urging a 
peaceful and credible national election. And last month Boko 
Haram launched what some say is the worst attack to date, a 
powerful statement if you think of their previous atrocities, 
including kidnapping nearly 300 school girls in Chibok. But 
satellite images from Baga show a town now completely leveled, 
thousands, thousands of boys and girls, mothers, and fathers, 
killed in this attack. It is no wonder that Boko Haram is being 
called the ISIS of Africa. And this resolution condemns the 
attack and expresses support for U.S. security assistance to 
the recently established African Union Regional Force, stood up 
to fight Boko Haram. Alongside these security concerns, Nigeria 
is also facing a watershed Presidential election. The political 
environment is extremely tense. The Nigerian Government has 
already delayed elections originally scheduled for mid-
February, and this resolution urges Nigeria to avoid any 
further delays as well.
    I want to thank Representative Kelly for introducing this 
timely resolution, and I should also recognize the leadership 
of multiple committee members, including the Africa 
Subcommittee Chairman Smith on Nigeria--and Boko Haram in 
particular--along with Karen Bass, the ranking member on that 
subcommittee. I will now turn to Mr. Eliot Engel for his 
comments on these two measures.
    Mr. Engel. Thank you very much, Mr. Chairman. And thank you 
for holding this markup and, as always, for working with us in 
a bipartisan manner. I strongly support the two measures in 
this en bloc, H.R. 400, Trafficking Prevention in Foreign 
Affairs Contracting Act, and H. Res. 53, a resolution 
condemning the attacks by Boko Haram in Northeastern Nigeria.
    Mr. Chairman, I want to commend your leadership on human 
trafficking issues. You mentioned all of the people, our 
colleagues who have done this, Mr. Smith for years, and so many 
other people on this committee. As you noted, current law 
prohibits U.S. Government contractors from charging foreign 
workers unreasonable placement and recruitment fees, but as the 
GAO has pointed out, neither the State Department nor USAID has 
adequately defined what ``unreasonable'' means. We don't want 
to leave any ambiguity that could lead to debt bondage or any 
other form of human trafficking. The bill simply requires State 
Department and USAID to submit a report clarifying this 
definition.
    Human trafficking is a modern slavery, a horrific crime and 
an assault on freedom and justice. As a leader in fighting this 
scourge, our Government needs to make sure that our procurement 
and contracting practices don't lead to abuse or exploitation 
of workers. The bill before us today will help ensure taxpayer 
dollars aren't inadvertently making this problem worse. I 
strongly support this legislation and urge all of my colleagues 
to do the same.
    Mr. Chairman, I also support H. Res. 53, a resolution 
condemning Boko Haram and encouraging free, fair, and ontime 
elections in Nigeria. I want to commend our new colleague on 
the committee, Congresswoman Robin Kelly, for introducing this 
important measure and for her leadership on this issue. Nigeria 
is going through a very difficult period right now. The brutal 
terrorist group Boko Haram has continued its reign of terror 
ruthlessly killing hundreds of civilians in the northeast part 
of the country, and in a controversial move, Nigeria's 
Presidential election has been postponed.
    Over the past 5 years, Nigeria's leaders have not dealt 
adequately with the challenge of Boko Haram. They must do 
better. And that is what this resolution says. It also applauds 
the efforts of other countries in the region, including Chad, 
Niger, and Cameroon, to cooperate in the offensive against Boko 
Haram.
    With respect to Nigeria's elections, I am deeply concerned 
by the 6-week delay announced earlier this month by the elected 
commission. Many believe this action was politically motivated. 
Nigeria is Africa's largest democracy and economy. The 
continent cannot afford the illegitimate elections to undermine 
stability in that country. This resolution urges the Government 
of Nigeria to hold elections on March 28, and calls on all 
parties to refrain from violence. Credible elections in such an 
important country will help project stability across the 
continent.
    So I urge my colleagues to as well support this important 
resolution.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    I want to turn next to Congresswoman Robin Kelly of 
Illinois, the author of House Resolution 53.
    Ms. Kelly. Thank you, Mr. Chairman.
    I want to extend my thanks to Chairman Royce, Ranking 
Member Engel, and the majority and minority staffs for their 
work in organizing today's markup.
    The resolution that I have offered in a substitute 
amendment is intended to serve as a direct message to Boko 
Haram that their terror and extremism will not be ignored. 
Their ideology will not be tolerated, and their legacy of 
savagery will not endure in the annals of history. Like so many 
across the world, I am outraged by the brutality and 
senselessness of Boko Haram's crimes. As we work with the 
international community to reduce the threat of terrorism 
around the world, we are reminded that Boko Haram has killed 
over 5,000 people in Nigeria in 2014 and displaced over 1 
million innocent people.
    Boko Haram has abducted hundreds of civilians using women 
and children as slaves and subjecting them to sexual abuse, 
suicide bombers, and child soldiers. Boko Haram has threatened 
to disrupt the Nigerian elections and intimidate would-be 
voters. Victimizing innocent men, women, and children for 
perverse and ideological gain will never be tolerated or 
treated as just by the international community. With our vote 
today, this committee can affirm that we stand for the human 
rights, dignity, and security of the Nigerian people. We will 
not tolerate a world in which Boko Haram or any terrorist 
organization can slaughter innocent civilians; we respect the 
right of women to be educated without the threat of violence; 
and that we support free and fair elections that do not have 
the threat of suppression and intimidation lingering around 
them.
    While they are not on this committee, I want to thank our 
colleagues Congresswomen Frederica Wilson and Corrine Brown for 
their leadership on this issue, and I again thank the chairman 
and ranking member for their work in marking up this 
resolution.
    I yield back.
    Chairman Royce. We turn now to Mr. Matt Salmon of Arizona.
    Mr. Salmon. Thanks, Mr. Chairman, and thank you for 
drafting this important bill and bringing it up so quickly at 
the beginning of the Congress. I have consistently supported 
any measures and legislation that would hold North Korea 
accountable to its intolerable actions.
    Chairman Royce. Mr. Salmon, we will take that bill up next, 
but right now, the en bloc amendment, sir.
    Mr. Salmon. Oh, the en bloc amendment. Thank you.
    Chairman Royce. Any other members seek to--Mr. Cicilline 
from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to thank you and Ranking Member Engel for swiftly 
scheduling the first markup of a new Congress to address 
critical issues in the world right now. I am happy to see us 
move forward on a number of bills that I am very proud to have 
cosponsored. I am particularly grateful to the chairman and the 
ranking member for their leadership on human trafficking with 
the Trafficking Prevention in Foreign Affairs Contracting Act. 
Put simply, human trafficking is slavery. It violates the 
founding principles of the United States of life, liberty, and 
the pursuit of happiness, and humanity's very basic principle 
of respect. The United States must continue to lead efforts in 
combating human trafficking, and I am very pleased that we are 
marking up legislation to improve transparency and enforcement 
regarding the oversight of recruitment fees paid by foreign 
workers.
    Finally, I was proud to cosponsor the resolution offered by 
my friend and college Congresswoman Robin Kelly condemning the 
violence and terrorism perpetrated by Boko Haram, abducting 
innocent students and forcing children into marriage or slavery 
is unconscionable. And no child in any part of the world should 
live in constant fear of kidnapping or death. We must send a 
strong message to Boko Haram that these heinous acts and their 
other terrorist activities are unacceptable. There is no 
question that the United States must do everything in its power 
to work with our partners to stop Boko Haram.
    And I, too, want to acknowledge the advocacy and passionate 
work of our colleague, Congresswoman Frederica Wilson.
    But also in our partnership with Nigeria, we must also 
enforce our expectations that the Nigerian Government is 
honest, fair, and treats all of its citizens with dignity.
    Last year, Nigeria enacted a law which added additional 
criminal penalties against lesbian, gay, bisexual and 
transgender individuals. Although titled ``The Same-Sex 
Marriage Prohibition bill,'' the law goes well beyond 
prohibiting marriage equality to actively discriminate against 
LGBT individuals and their allies in meaningful ways. Since 
enactment of the law, we have received reports of escalated 
violence, police and government oppression, and censorship. And 
while we commit to the full might of the United States to 
fighting Boko Haram, we cannot ignore egregious human rights 
violations at the same time.
    Again, I commend the chairman and the ranking member for 
moving these important pieces of legislation, and I look 
forward to their passage, and I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    We go now to Mr. Smith of New Jersey. His Africa 
Subcommittee has done key work on Nigeria and Boko Haram, 
pushing for its designation as a foreign terrorist 
organization.
    Mr. Smith. Mr. Chairman, thank you very much for bringing 
these bills before the committee and for your leadership on the 
trafficking bill. I think that is a very timely bill. The GAO 
report adds exclamation points to what this will seek to 
accomplish, the one that was done just a few months ago. So 
thank you for that leadership.
    You know, on the whole idea of exploiting workers and 
falsifying recruitment procedures as well as recruitment fees, 
this has been a problem that has plagued our own procurement 
process. I held a series of hearings, Mr. Chairman, and two of 
them were joint hearings; one with Duncan Hunter when he was 
the chairman of the Armed Services Committee and the other with 
John McHugh when he was a subcommittee chairman. And we were 
able to probe and discover very, very egregious practices on 
the part of our own procurement, whereby contractors as well as 
recruitment people in Jordan and elsewhere were inviting people 
to come to work for us, only to be told once they got here that 
they couldn't leave. They were in substandard housing. Their 
passports were taken away from them, and then they were living 
in despicable circumstances and getting pay that was nowhere 
near what they were earning--or should have earned--and what 
they were promised.
    It fits the definition of a labor trafficking offense. We 
have pressed repeatedly that in all procurement, across the 
board in the United States Government, that we set the 
standard, not be part of the problem but be part of the 
solution when it comes to purchasing and when it comes to 
employing people, particularly overseas. It has not been a good 
record. And, again, this I think helps us get further 
information, further clarification about how we can do much 
better.
    I would also point out that, in 2003, when we did the 
reauthorization of the Trafficking Victims Protection Act, 
legislation that I was the author of, the act had specific 
language about contracting; and if a contractor is complicit in 
human trafficking, that not only are we able to take that 
contract away from them in a very expeditious way, but we will 
hold all those who are complicit in that trafficking labor or 
sex trafficking to account criminally so that we can bring 
charges against them. Again, you now bring further push, 
amplification, light, and scrutiny to what has not been a very 
good or well-executed policy, and I thank you for it.
    Chairman Royce. I thank you. You still have time.
    Mr. Smith. Just briefly on the Boko Haram issue if I could. 
And Boko Haram, we can't say enough about how bad Boko Haram 
is, how lethal, how radical they are. They are radical 
Islamists. I have been, along with my staff director, Greg 
Simpkins. We have been to places like Jos. Jos is a place where 
several churches were firebombed, and I met with, as did Greg, 
with the survivors. And to hear them tell their stories about 
how they were targeted simply because they were Christians, no 
other reason. We had a man testify. I met him in an IDP camp in 
Jos. Adamu, his name was, and he was taken out of his house--he 
lived in the north--an AK-47 was put to his jaw and he was 
told, You renounce your faith in Christ, or I will blow your 
head off. Well, he said, I am willing to meet my Savior, and I 
am not going to renounce my faith. The Boko Haram terrorist 
pulled the trigger, blew the entire side of his face off.
    When I met him, I was in awe of his courage, his faith, so 
we invited him here. He came and gave testimony, and Members 
who were there, you could have heard a pin drop when he 
explained what it is that he went through and the love, even 
after that, that he holds for those who were his tormenters. He 
has forgiven them. He wants them to stop, obviously, because 
this, like ISIS and like these other radical Islamists, like 
al-Shabaab and others, are on a tear to destroy Christianity, 
to destroy moderate Muslims as well.
    So we need in this committee--and I thank you for doing 
this--to continually bring forward resolutions, statements, 
expressions, debate time, on Boko Haram. Let me also say, and I 
asked Secretary of State this just a couple of days ago, I 
think we are failing in our obligation to provide the training 
that the Nigerian military needs in order to operate an 
effective counterinsurgency operation. I have met with the 
people who do it in our Embassy in Abuja, wonderful military 
people. I have met with the military of Nigeria. I met with the 
Foreign Minister of Nigeria most recently, and I was encouraged 
by the Secretary's statement that this needs to be gotten back 
on track. But it has been slow. And it has not been as 
expansive enough.
    There was a false statement made earlier in this debate by 
several that we couldn't vet sufficient numbers of Nigerian 
military pursuant to the Leahy amendment. So I convened a 
hearing on that, and we heard from not only a number of human 
rights organizations, but we also heard from the 
administration. And they said at least 50 percent of the 
Nigerian military could pass muster under the Leahy provision. 
So let's do it. They don't want our troops. They do need 
certain weapons and night-vision goggles and the like because 
we know Boko Haram often operates at night. But let's train 
these men and women and their officer corps so they can protect 
these children who are being abducted, the boys being killed, 
the young girls being abducted like the Chibok schoolgirls. I 
have met several of the lucky ones, the Chibok schoolgirls, 
both in Nigeria and a few that have made it here, to hear them 
tell their stories. It is just frightening, the horror that 
they live with, the PTSD that they now have to cope with in the 
middle of the night when they think of what that was like to 
have been taken hostage by this terrorist group.
    The Nigerian military is capable. I have seen them, Mr. 
Chairman, all over the world, especially in Africa, but also in 
places like Sarajevo during the Balkan wars as peacekeepers. 
They have stepped up to the plate time and again. In Darfur, I 
was with a Nigerian group who were peacekeepers. They have done 
a very good job, but the skill set that they have needs to be 
ramped up. We are not doing it. So, again, I appeal to the 
administration. We need to work this out. I pleaded with them, 
let's get a jointness going with their military and get this 
training up and running to mitigate this threat and hopefully 
to abolish it.
    And I thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Smith.
    Anyone else seeking recognition on this legislation?
    Mr. Trott of Michigan.
    Mr. Trott. I want to thank the chairman and the ranking 
member for scheduling the markup of H.R. 400. We should 
obviously expect and demand transparency and accountability of 
contractors employing foreign workers. And when we discover 
practices that exacerbate human trafficking, we should demand 
not only detailed plans to correct the violations, but also 
penalties should be imposed.
    I also want to thank the chairman for scheduling a markup 
of House Resolution 53. The aggression on the part of Boko 
Haram has been unconscionable and has been a breach of the 
principles of political and religious freedom that this country 
is built on. The ability to freely practice religion and 
participate in the political system has brought us prosperity 
and would bring prosperity to Nigeria as well. In this spirit, 
we should encourage Nigeria to not submit to terrorism and fear 
but instead move forward with their elections.
    We stand with the Nigerian Government.
    They have our support, and we thank the African Union for 
all of their efforts to combat this problem.
    I yield back my time.
    Chairman Royce. Hearing no further requests for 
recognition, the question occurs on the items considered en 
bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures are considered en bloc. H.R. 400 and the House 
Resolution 53, as amended by Kelly's amendment 14, are agreed 
to.
    And I now call up H.R. 757.
    Clerk, if you could read the bill.
    Ms. Marter. H.R. 757, a bill, to improve the enforcement of 
sanctions against the Government of North Korea, and for other 
purposes.
    Chairman Royce. Without objection, the bill is considered 
as read and open for amendment at any point.
    [The information referred to follows:] H.R.  
757 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. And, again, after recognizing myself and 
the ranking member, I am glad to recognize other members 
seeking recognition to speak on the underlying bill. And then 
we will consider en bloc a package of bipartisan amendments. 
And so this is the North Korea Sanctions Enforcement Act. And 
this relates to the attack in November, the cyberattack on Sony 
Pictures. North Korea, once again, reminded the world that 
behind its belligerent rhetoric is a country that poses a very 
real and a very serious threat to our security.
    This bill, the North Korean Sanctions Enforcement Act, is a 
direct response to North Korea's continued aggression, and I 
want to thank the ranking member, Mr. Engel, who has been twice 
to North Korea, for working with me to introduce this bill, 
which is substantially similar to our North Korea sanctions 
bill that passed the House last July.
    This bill codifies a robust array of tough sanctions 
against the regime and its enablers, much like the penalties 
that were successfully applied by the Treasury Department back 
in 2005 when the agency targeted a small bank in Macau that was 
complicit in Pyongyang's counterfeiting at the time. And this 
seriously crippled North Korea's financing and was one of the 
most effective steps we have taken against North Korea, until 
the sanctions were foolishly lifted in 2008 in exchange for 
fruitless negotiations over the country's nuclear program.
    Nearly 7 years later, some analysts believe that North 
Korea has succeeded in miniaturizing a nuclear warhead. Some of 
you may have seen this reported yesterday, but they reportedly 
could be on track to have a stockpile of 100 atomic bombs 
within 5 years. It is time to end the administration's policy 
of strategic patience. And this bill will prevent Kim Jong-un 
and his top officials from reaching those assets they maintain 
in foreign banks, as well as the hard currency that sustains 
their rule.
    The bill's sanctions target North Korea's money laundering, 
its counterfeiting, and its smuggling and narcotics 
trafficking, undermining these key finances of the regime's 
nuclear program. Disrupting North Korea's illicit activities 
will also place tremendous strain on the country's ruling elite 
who have done so much harm to the North Korean people. I have 
seen some of that harm firsthand in the eastern part of North 
Korea when I was there.
    Last year, the U.N. Commission of Inquiry released the most 
comprehensive report on North Korea to date, finding that the 
Kim regime has for decades pursued policies involving crimes 
that ``shock the conscience of humanity,'' in their words. H.R. 
757 requires the State Department to use the Commission of 
Inquiry's findings to identify the individuals responsible for 
such abuses. And the bill also requires the administration to 
report on activities that seek to undermine our cybersecurity 
and to study the feasibility of bringing cellular and Internet 
communications to North Korea's people to break the information 
blockade.
    We will now turn to Mr. Engel for his opening statement on 
North Korea Sanctions Enforcement Act.
    Mr. Engel. Mr. Chairman, I want to personally thank you for 
bringing up this important bipartisan legislation. As always, 
you are clearheaded and determined and steady on important 
issues, such as North Korea. You and I agree about the threat 
posed by North Korea. I want to thank you for giving this issue 
the attention it deserves, and I am proud to be the lead 
Democratic sponsor of the North Korea Sanctions Enforcement 
Act.
    North Korea's unrelenting pursuit of nuclear weapons and 
ballistic missiles, their blazing disregard for international 
law, and their brutality against their own people has gone on 
for far too long. The United States and governments around the 
world must be clear to leaders in Pyongyang: The only way for 
the regime to ends its political and economic isolation is to 
abandon its current course. This legislation sends just that 
message. Specifically, this bill broadens sanctions against 
North Korea. It targets those who are helping to sustain the 
Kim regime through elicit activities. It also enhances the 
enforcement of sanctions. I have been to North Korea twice, and 
I must tell you that the North Korean people certainly deserve 
better than what they have. This legislation gives the 
President important tools and the flexibility to act in a way 
that best serves our national interests. It also provides 
important exceptions to the humanitarian relief organizations 
providing food, medicine, and other assistance to the North 
Korean people. We have seen this regime's track record, a 
cyberattack against Sony Pictures in December of last year, 
gross human rights abuses against its own people, an illegal 
nuclear weapon's program. It is time to raise the costs on the 
Kim Jong-un government. This is the right legislation, the 
right time, and I urge my colleagues to support it.
    I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Eliot. Do any other members seek 
recognition to speak on the bill?
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you.
    First of all, I would like to thank both you and the 
ranking member for the leadership you have provided on this, 
and on this and a lot of issues that we have been facing. This 
is a really contentious time in our history, and we are lucky 
to have both of you and giving this committee and all of the 
rest of us the guidance and leadership we need.
    I would just like to add on this particular bill, where we 
are focusing on North Korea, I would like to make sure that we 
go on the record--or at least I am on the record--as pointing 
out that many of the things that we are blaming North Korea 
for, which they deserve blame for, can be traced back to the 
influences of Beijing on their policies. The Communist Chinese, 
I am of certainty, are helping them in their efforts when it 
comes to nuclear weapons development, for example, and 
cyberattacks. I do not believe that all of these activities, 
which are criminal activities against the West and trying to 
put us in jeopardy and also especially aimed at putting Japan, 
we have to understand that much of what is going on in North 
Korea is aimed at sort of a--giving an ominous threat to Japan. 
And the Japanese are fully aware that this isn't just coming 
from North Korea. It is Beijing giving a message to Japan 
through their puppet state in North Korea. So I, just for the 
record, I want to make sure that we understand this is a chess 
game going on here, and the and the main player on the other 
side is Beijing. So thank you very much to both of you, and I, 
of course, urge your support for this resolution.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and I do want to 
thank you and Mr. Engel for your leadership.
    This is a terribly important piece of legislation and maybe 
more critical now than ever. And adding the cyber piece, I echo 
what my friend Mr. Rohrabacher just said. I think that is 
critical. It was only a few years ago that the entire banking 
system of South Korea actually was shut down in a cyberattack 
almost certainly from the North. So reporting on that is very 
important. I want to thank you also for--I know we are supposed 
to speak to the underlying bill, but I have got to run back to 
another hearing where I am a ranking member, but two amendments 
that I authored, and I thank you and Mr. Engel for accepting 
them, one was in the core bill from last year, and this is, 
expanding reporting requirements, including asking the State 
Department to tell us, what are you telling China? What are you 
asking China to do with respect to the recommendations of the 
Commission of Inquiry on Human Rights in Korea? And I think 
that is actually very important. That China relationship is 
changing. It is evolving. It can be a critical piece of 
leverage we otherwise don't have. And so while it looks like a 
simple reporting requirement, actually, I am hopeful and I know 
that you and Mr. Engel are as well, Mr. Chairman, that we can 
use this as a point of leverage.
    And then, finally, thank you for accepting an amendment in 
this markup on family reunification. I can tell you in my 
district I have got constituents, Korean constituents, who have 
not seen their families since the end of the--well, since the 
secession of hostilities in the Korea conflict. To go 70 years 
without seeing a loved one is heartbreaking, and they probably 
will die before they get to see their relatives. And so family 
reunification, a very major issue, and we know that South 
Korean President Park Geun-hye has sought to improve in that 
regard in her peace and reunification initiative. And I think 
we should be supportive of that. And I thank you both for 
including those provisions and for your leadership in this 
matter.
    Chairman Royce. Thank you, Mr. Connolly.
    Mr. Ted Poe of Texas and then Mr. Matt Salmon.
    Mr. Poe. Thank you, Mr. Chairman.
    I appreciate the chair and the ranking member supporting 
the amendment that I have offered. I would like to speak 
briefly about the amendment and underlying bill in the next few 
minutes. The underlying bill, when we think of Iran, we always 
need to think of North Korea, and when we think of North Korea, 
we need to think of Iran. They are working together. One has 
nuclear capability; the other has weapons, and they are, in my 
opinion, wanting to trade off each other's facilities or 
knowledge so that they could both be worse than they are 
individually.
    Iran calls North Korea a member of their Axis of 
Resistance. They are really, I think, an axis of world terror. 
North Korea, their new President Kim Jong-un, I don't know if 
the chairman remembers this, but he made a statement--I think 
it was last year--that he is excited about getting nuclear 
weapons and wants to send his first intercontinental ballistic 
missile to Austin, Texas. I don't know why he picked Austin, 
but I am offended by that. I take it real personal that he 
would want to----
    Chairman Royce. You probably should.
    Mr. Poe. University of Texas. Sir?
    Chairman Royce. Judge, you probably should.
    Mr. Poe. I am the reason. I don't know about that, but, 
anyway, I think we should take them seriously about their 
world-domination goals and always think of both of them working 
together, which leads to the amendment. The amendment is very 
simple. It requires that the President submit a report stating 
the cooperation between Iran and their buddies over in North 
Korea on their nuclear program and what is taking place between 
the two. And that is a loophole, I think, in the ongoing 
nuclear talks with Iran, and we need to encourage the 
administration to give us information about what Iran and North 
Korea are doing together in their nuclear weapon development.
    So once again, I think we should support the bill. I 
appreciate the chairman and the ranking member for bringing 
this up. We need to focus America's attention on both of these 
axes of terror and immediately approve this legislation but 
require that the administration continue to tell Congress what 
is taking place between these two world threats. And I yield 
back the balance of my time.
    Chairman Royce. Thank you, Judge Poe.
    Ms. Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Like the Judge, I too am deeply offended that North Korea 
has called out my constituents in the State of Hawaii, placing 
us in their crosshairs. Understanding that with what is 
happening in the region this is actually something that is top 
of mind for people, something that is very real. So as you look 
at the growing threats across the world, both conventional and 
unconventional, I appreciate your leadership and the ranking 
member's leadership, and continuing to hold the line and 
maintain this pressure on North Korea as they openly continue 
to develop their ballistic missile capabilities, and their 
nuclear capabilities, understanding that that consistency and 
that increased pressure is necessary if we want this to have a 
very real effect. Again, my constituents in Hawaii and others 
in the Asia-Pacific Region are acutely aware of what North 
Korea is doing on the one hand, and what we are doing to stop 
them. Thank you very much.
    Chairman Royce. Thank you.
    We go to Mr. Matt Salmon of Arizona.
    Mr. Salmon. Thank you.
    Mr. Chairman, I greatly appreciate your tenacity on this 
issue, and the ranking member. And I am very, very hopeful that 
this year it will actually pass the Senate and get to the 
President's desk because I think it is vitally needed. It is 
legendary what bad actions that Korea--North Korea--has taken 
on the world stage both in terms of its nuclear proliferation 
and threats as well as its cyberterrorism with Sony Pictures, 
and if we don't start drawing some hard lines in the sand now, 
this escalation will continue.
    The one thing I would like to point out is that we will be 
going to visit the folks in China in the not-so-distant future, 
and I am really hopeful that China takes more of an interest in 
containing North Korea. They have a disproportionate influence 
than any other country in the world because of North Korea's 
dependence on their--for their economic wellbeing. And I truly 
do believe that Beijing has a big hand to play, and I am 
disappointed that they haven't.
    I hope that we will continue to encourage them to do the 
responsible thing because it is not only in the world's best 
interest, but it is in their best interest too. So, thank you, 
Mr. Chairman, for doing this yet one more time, and let's get 
it across the finish line this time. Thank you.
    Chairman Royce. Thank you, Mr. Salmon.
    As I recall, I raised this issue, as did Eliot Engel, with 
the Premier in Beijing, and as I recall, you may have said the 
same thing in Mandarin, and your Mandarin is very good. 
Afterwards, the delegation on the other side commented on that.
    So other members seeking recognition here?
    If not, hearing no further--Mr. Trott.
    Mr. Trott. I just wanted to thank the chairman and the 
ranking member for moving H.R. 757 forward. The chairman wisely 
scheduled a hearing a couple of weeks ago on North Korea. And I 
for one found the answers from the representative from the 
State Department and his complete confidence in the President's 
Executive order on North Korea--I think it is Executive Order 
13687--his belief that that Executive order would singularly 
correct North Korea's bad behavior a little disturbing. And it 
was clear from the discussion that additional, more vigorous 
sanctions are required.
    So, thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Trott.
    Hearing no further requests for recognition to speak on the 
bill, we now--Mr. Chabot, you are recognized. We are on the 
legislation on North Korea, Mr. Chabot.
    Mr. Chabot. Okay, I had a different--yeah, that is the one. 
I just spoke on the floor. I apologize. I just raced over here 
from speaking on the bill that we are taking up on the floor 
today. I appreciate, Mr. Chairman, I would like to express my 
support for H.R. 757, the North Korea Sanctions Enforcement Act 
of 2015.
    Kim Jong-un's regime represents an imminent threat to the 
global nonproliferation effort, to the global economy, and the 
global financial system. North Korea has made its intentions 
clear that it will not halt its nuclear weapons and missile 
programs. But its trajectory will not last long if the U.S. 
denies access to its offshore accounts and funding.
    As you know, H.R. 757 puts banks everywhere on notice that 
they must choose between doing business with Kim Jong-un and 
making use of the U.S. financial system, and that U.S. must 
maintain a consistent position that makes it crystal clear to 
the regime in Pyongyang that we will not concede to its 
unreasonable demands. The time for willful blindness, for 
looking the other way at North Korea's proliferation, money 
laundering, and its kleptocracy is over. I look forward to 
working with my colleagues to ensure this happens, and hope 
that the administration pursues a path that will increase 
security for South Korea and the international community.
    And, again, I apologize for getting here at the last 
minute. But I had to be in two places at once. So I yield back.
    Chairman Royce. Well, we thank you, Mr. Chabot, and as I 
say, hearing no further requests, we now move to consider en 
bloc the bipartisan amendments. There were three of them 
provided to your office just yesterday, which are also in your 
packets.
    And without objection, the following amendments to H.R. 757 
will be considered as en bloc and are considered as read: One 
is the Castro amendment 22, the Connolly amendment 23, and the 
Poe amendment 83.
    [The information referred to follows:] Castro 
amendment 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Connolly amendment <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Poe amendment <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Royce. I am assuming no one wants to speak on any 
of these en bloc. Mr. Castro would. Mr. Castro.
    Mr. Castro. Sure. Thank you, Chairman, and thank you and 
the ranking member for all of your work on this issue. 
Yesterday, Director of National Intelligence James Clapper 
stated that North Korea's offensive cyber operations, growing 
stockpile of ballistic missiles, and nuclear weapons pose ``A 
serious threat to the United States and to the security 
environment in East Asia.''
    My amendment echoes Director Clapper's assessment by adding 
a sense of Congress that North Korea's nuclear ballistic 
missiles program are of mutual concern to the United States, 
Japan, and South Korea, and that trilateral cooperation is 
essential to the security of each Nation and the stability of 
Asia-Pacific Region. Last December, the United States, Japan, 
and South Korea finalized a trilateral military intelligence-
sharing agreement concerning threats posed by North Korea. The 
United States has had bilateral agreements with Japan and South 
Korea, but this is a new trilateral agreement that creates a 
more effective bulwark against North Korea and strengthens our 
collective response capabilities the event of future aggression 
from North Korea.
    The United States, Japan, and South Korea share the values 
of democratic governance and the rule of law and respect for 
human rights. It makes sense that we share intelligence related 
to North Korea's military threats.
    I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Castro.
    Any other members seeking time?
    Hearing no further requests for recognition, the question 
occurs on the amendments considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
Castro, Connolly, and Poe amendments are agreed to.
    Are there any further amendments to the bill? Hearing no 
further amendments, the question occurs on agreeing to H.R. 
757, as amended.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The bill, as 
amended, is agreed to. And, without objection, H.R. 757, as 
amended, is ordered favorably reported and will be reported as 
a single amendment in the nature of a substitute. Staff is 
directed to make any technical and conforming changes, and also 
without objection, the Chair is authorized to seek House 
consideration of any of today's measures under suspension of 
the rules. And that concludes our business today.
    I want to thank Ranking Member Engel and all of the 
committee members for their contributions and all of your 
assistance in today's markup. We stand adjourned.
    [Whereupon, at 10:22 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record Notice 
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                 [all]
</pre></body></html>
